<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2010</title>
<body><pre>[Senate Hearing 111-]
[From the U.S. Government Publishing Office]



 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2010

                              ----------                              -
--


                         THURSDAY, JUNE 4, 2009

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:31 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Barbara A. Mikulski (chairman) 
presiding.
    Present: Senators Mikulski, Lautenberg, and Shelby.

                         DEPARTMENT OF JUSTICE

                    Federal Bureau of Investigation

STATEMENT OF HON. ROBERT S. MUELLER III, DIRECTOR

                STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski. Good morning, everybody. Today the 
Commerce, Justice, and Science Subcommittee will hear from FBI 
Director Mueller on the FBI's budget priorities for fiscal year 
2010. We welcome the Director of the FBI, who is no stranger to 
this subcommittee, having now been the Director for 8 years.
    This hearing will not only ascertain the appropriations 
needs of the FBI, but I also thought it would be a good time to 
take stock of where we are, not to in any way step on the toes 
of the Intel or Judiciary Committee. But the FBI is a wonderful 
and unique agency. It has iconic status in the minds of the 
American people. The American people count on the FBI to 
protect them from those people that have predatory intent 
against them, whether it's in streets and neighborhoods, 
whether it's when they go to get a mortgage, whether their 
children are on the Internet, or whether their a terrorist who 
would like to take down the United States of America.
    We're going to do something unique today. We're going to 
have a public hearing on the appropriations and then we will 
also have a classified hearing. For those not familiar with 
what the Congress did after 9/11, when we had to see how we 
would deal with the threat of terrorism, the question was would 
we create a new agency, kind of an MI-5, or would we do an 
agency within an agency?
    We created within the FBI a very robust effort on fighting 
terrorism. Many of the things to be discussed regarding what 
tools the FBI needs to meet that national mandate must occur in 
a classified setting. So for the first time CJS will hold a 
classified hearing, and we will look forward to hearing what 
the FBI does.
    I have been concerned for some time. Because that work is 
unseen, as it must, and so it's not often understood by 
policymakers and those who formulate the budget. So today we 
will be in an appropriate classified, secure forum where we can 
get to know more rigorously what the FBI's doing and then what 
we need to do. As part of the national mandate we gave to them, 
what is the national mandate we need to give to ourselves to 
make sure the FBI has any and all appropriate resources?
    We're pleased that the President today is abroad making as 
many friends as we can, but we also know that there are many 
people who, as I said, have this predatory intent.
    Today and at this particular part of the hearing, we want 
the FBI to know how proud we are in how they fight to protect 
Americans. They dismantle organized crimes and drug cartels. 
They combat drug violence. They solve kidnapping and extortion 
cases. They rescue the vulnerable from illicit traffickers. 
They protect children against pornography on the Internet and 
they investigate and prosecute corrupt public officials. We 
want to make sure the American people fully appreciate them and 
we want to make sure that they're fully appropriated.
    As I said, the FBI was given a new mission after 9/11. 
There are essentially what we call four decision units--a 
wonderful way of talking about it when we talk about the FBI. 
I'm just going to review them briefly, go over the President's 
budget, and then want to turn to Senator Shelby, who I know has 
also a defense hearing.
    There are four decision units, meaning how the FBI is 
organized for budgetary purposes. There is the intelligence 
unit, which is requesting $1.64 billion. This is $150 million 
over the President's fiscal 2009 request. This Intelligence 
Directorate includes field agents, virtual translation center, 
language analysis, and foreign terrorist tracking service.
    We also have a counterterrorism and counterintelligence 
unit. That is a $3.4 billion request, 9 percent over fiscal 
2009. Counterterrorism means detecting and defeating terrorist 
operations before they occur--it's a pretty big job, and that's 
what we'll talk about--making sure that weapons of mass 
destruction are not built or detonated or imported to the 
United States. They're dealing now with the new threat of cyber 
computer intrusion, which goes to the President's cyber 
security initiative, and the foreign counterintelligence 
program and the critical response.
    That which the American people are most familiar with is 
the criminal enterprise and Federal crime decision unit. This 
is a $2.8 billion request, $130 million above the fiscal 2009 
appropriated level. The criminal enterprise deals with cyber 
crime, organized crime, trafficking, children's pornography, 
and of course the public corruption cases.
    Then there is the criminal justice services unit, which is 
$427 million, $8 million over last year's $418 million. The 
criminal justice services unit includes crime information on 
stolen property, the national computerized fingerprint check 
system, which local governments rely on so much, the FBI 
forensic laboratory, and many others.
    We know that the FBI has new initiatives on the home front 
that we have asked them to take up. Senator Shelby has been a 
real leader on this in the Banking Committee. Senator, I'd like 
to commend you for that, on mortgage fraud. This subcommittee 
was one of the first to blow the whistle, if you will, to our 
colleagues or, shall we say, sound the horn on alert, that 
there was fraud as part of this economic meltdown, as thousands 
and thousands of Americans lost their homes. It was one thing 
to lose your home because you had lost your job; it was another 
thing to lose your home because of fraud.
    So the FBI is asking for 50 new agents and 61 new forensic 
accountants, for a total of 225 agents, 42 fiscal analysts, and 
61 forensic accountants to investigate complex financial 
investigations. We look forward to seeing if that is adequate 
enough.
    We also know that we continue our very strong efforts in 
the area of child pornography and how that then ties in with 
the other aspect in our bill, with the missing persons unit.
    The FBI also has responsibility for investigating Federal 
civil rights law, which means hate crimes, human trafficking, 
and access to Federal clinics. We have agents working on this 
and we need to continue work on it. I was appalled when Dr. 
Tiller was assassinated in a church on Sunday. I believe it is 
a hate crime. I'm glad that the person who assassinated him has 
been arrested. I look forward to a speedy trial and I look 
forward to those who use violent words to promote violent 
actions taking responsibility for it. But we're glad that the 
FBI is on the job for investigating hate crimes.
    There are many other issues that we want to go over, but we 
want to hear more from Director Mueller than from ourselves. 
I'd like to turn to Senator Shelby for his statement. Senator, 
I would like to also yield to you for a first round of 
questions because we've got defense today. Well, we've got two 
defense hearings, one in the defense and then another kind of 
defense. So why don't I turn it over to you, and use such time 
as you want and ask any questions you want.

                 STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. Thank you. Thank you, Madam Chairman. I 
will put--with your permission, I'll put my questions in the 
record if I could.
    But, Mr. Director, thank you again for appearing before the 
committee, but also thank you for the job you're doing as the 
leader of the Federal Bureau of Investigation.
    I want to begin by also thanking the men and women of the 
FBI who worked to protect this Nation. We're indebted to them 
for the sacrifices they make to protect our country.
    The FBI's role has changed dramatically, Mr. Director, as 
you know because you've been in the leadership there since 9/
11. The mission now includes fighting terrorism, foreign 
intelligence operations, cyber crime, public corruption, white 
collar crime, and violent crime. Since 9/11 the FBI has shifted 
approximately 2,000 agents from the Criminal Division to 
address the expanding counterterrorism role for a good reason.
    The FBI's request for fiscal 2010 is $7.9 billion and, 
while this is a $560 million increase over the 2009 funding 
level, many vital areas within the FBI remain underfunded, Mr. 
Director, as you know and we've discussed. With the shift of 
thousands of agents from the FBI's criminal mission to 
counterterrorism, a significant burden has been placed on our 
State and our local law enforcement agencies.
    Mr. Director, while I'm grateful for the Bureau's efforts 
on thwarting terrorism--we all are--a 2 percent increase to the 
Criminal Division's budget is hardly a significant improvement 
in the investigative assets that you can provide as the head of 
the FBI to assist State and local partners to fight crime in 
our communities. We know that's a challenge on money and 
otherwise.
    Because the Federal investigative assets are spread so 
thin, the concerns raised in the May 2007 inspector general 
report entitled ``Coordination of Investigations by the 
Department of Justice Violent Crime Task Forces'' are 
troubling. The report states that some DOJ components have 
nationwide policies that require coordination of task force 
operations. The ATF, the DEA, and the Marshall Service entered 
into memorandums of understanding that require their task 
forces to coordinate their operations. Yet the FBI to date to 
my knowledge has no policy of coordination.
    To quote an FBI task force manager in the report, ``The FBI 
only participates in joint investigations as the overall head 
agency and, because the FBI is the lead agency, the FBI special 
agents share information in accordance with FBI policy.'' I 
understand that, too, to a point.
    Although this report was released in May 2007, 2 years ago, 
the situation does not appear to some participants to have 
improved. I continue to receive numerous complaints from 
various law enforcement agencies about the FBI's unwillingness 
to share information or encourage their State and local 
partners not to share with other Federal partners. I think this 
needs to be addressed and I think this is something you could 
do.
    A lack of cooperation and refusal to share information 
helped lead to the worst terror attack in U.S. history. As the 
leader of the top law enforcement agency in the world, I hope 
you will take the initiative and at least address this problem 
the best you can.
    Finally, the Terrorist Explosives Device Analytical Center, 
TEDAC, at Quantico, which we've talked about yesterday in my 
office, provides forensic analysis to the IEDs recovered in 
Iraq and Afghanistan. The need to exploit these devices, as 
you're well aware of, in a timely fashion for the military is 
critical to the safety of our soldiers, and it could be 
critical to our own citizens. This past Tuesday I met with 
Lieutenant General Metz, the Director of the Joint Improvised 
Explosives Device Defeat Organization. He showed me a picture 
of an FBI warehouse filled with boxes of evidence, stacked to 
the ceiling waiting to be processed. You can see it here.
    It is clear that the current TEDAC at Quantico--and you've 
acknowledged this--is undersized, overwhelmed, and lagging. 
According to the Department of Defense, approximately 80 
percent of the material submitted to TEDAC remains unprocessed 
and sits in warehouses. Most of the material sent in 2008 and 
2009 has not even received basic inprocessing and photography. 
At the FBI's rate of processing evidence, the Department of 
Defense indicates that it will take 20 years or more to clear 
the backlog. 20 years, that's too much, as you and I both 
discussed.
    I believe that it's conceivable that somewhere within the 
warehouse of evidence, in one of those boxes, there might be a 
trace element of a fingerprint that could identify a terrorist 
bomb maker. By identifying that terrorist, he could be put out 
of commission and the lives of our warfighters and perhaps our 
citizens could be saved.
    In the past 4 years the committee has provided, as we 
talked yesterday, the FBI with approximately $86 million toward 
construction of a larger and more state of the art TEDAC. I 
hope that we can keep addressing this and build that facility, 
and I know you've indicated support for it.
    Madam Chairman, I have a number of questions I'd like to 
submit for the record. I don't want to eat the time up. I do 
have a defense meeting I have to go to on Appropriations. But I 
will like to join you and the Director and others at your 
closed hearing later.
    Senator Mikulski. Thank you very much, Senator Shelby.
    Director Mueller, the floor is yours.

                     STATEMENT OF ROBERT S. MUELLER

    Mr. Mueller. Allow me to start by saying good morning, 
Madam Chairwoman, Ranking Member Shelby. It's an honor again to 
be here with you.
    As you know, the FBI has undergone and, as you indicated, 
both Senators, we've undergone unprecedented transformation in 
recent years, combining better intelligence capabilities with a 
longstanding commitment to protect the American people from 
criminal threats. In so doing, we remain mindful that our 
mission is not just to safeguard American lives, but also to 
safeguard American liberties.
    I want to thank the chairwoman and ranking member and other 
members of the committee for continuing support over the years, 
ensuring that the FBI has the adequate tools and resources to 
meet these threats from global to regional to local, or be 
those threats from a criminal, a terrorist, or a spy.
    I would also like to thank members of your staff--Gabrielle 
Batkin, Erin Corcoran, Eric Chapman, Art Cameron, Goodloe 
Sutton--for their efforts in this regard and working with us on 
these budgets over the years.
    The FBI's fiscal year 2010 budget request represents an 
outline of the resources needed for the FBI to succeed in its 
mission to keep America safe, while recognizing our 
responsibility to be good stewards of public funds. While my 
written statement and our budget request goes into greater 
detail, I do want to highlight a few specific areas, including 
cyber, economic crime, surveillance, and the FBI's 
infrastructure.
    Certainly the threats currently present in the national 
security arena continue to be a grave concern. Terrorism 
remains our top priority and we cannot become complacent. We 
must continue to guard our country's most sensitive secrets 
from hostile intelligence services. In addition to other 
measures, our budget request includes essential surveillance 
resources to combat these threats.
    Our Nation's cyber infrastructure is also vulnerable to 
compromise or disruption, be it from a terrorist, a spy, or an 
international criminal enterprise. We must continue working to 
stay ahead of those using new and innovative methods to attack 
our networks, and our request does include resources to that 
end.
    As each of you pointed out, these are by no means our only 
priorities. Economic crime, especially mortgage fraud and 
corporate fraud, presents a serious threat to our Nation. We 
are currently investigating more than 2,400 mortgage fraud 
matters, more than double the number from 2 years ago. We are 
investigating more than 580 corporate fraud cases and more than 
1,300 securities fraud cases. We must continue our efforts in 
this area as it grows in magnitude and in scope.
    Historically, the Bureau handled emerging criminal threats 
by transferring personnel within its Criminal Branch to meet 
the new threat. In response to the September 11 attacks, the 
FBI permanently moved approximately 2,000 of our criminal 
agents to our National Security Branch, as has been pointed 
out. This transfer has substantially improved our 
counterterrorism and intelligence programs and we have no 
intention of retreating from preventing another terrorist 
attack on American soil.
    But, it has also reduced our ability to surge resources 
within our Criminal Branch to meet existing and emerging 
threats. I do wish to work with you to restore that balance to 
the extent possible, and in doing so the Bureau must still 
maintain its commitment to other key areas.
    Public corruption continues to be our top criminal 
priority. The FBI has 2,500 pending public corruption 
investigations. In the last 2 years alone, we have convicted 
nearly 1,700 Federal, State, and local officials, and we must 
continue to hold accountable those who abuse the public trust.
    Violent crime is also a substantial, serious concern. The 
citizens of many communities continue to be plagued by gang 
violence and gun crime. Since 2001, our gang cases have doubled 
and the spread of international gangs has increased. The FBI 
continues to combat this threat through more than 200 safe 
streets, gang, violent crime, and major theft task forces 
across the country. I must say as an aside to the comments made 
by Senator Shelby, I do believe that these task forces have a 
reputation of cooperating fully with our Federal and our State 
and local partners. Particularly since September 11, 2001, our 
relationships with Federal, State, and local partners have 
improved substantially around the country, although of course 
there will always be anecdotal evidence from this individual or 
that individual that it is not all it should be.
    So too must we continue to work with our State and local 
counterparts to combat crimes against children, the most 
vulnerable members of our communities.
    Finally, I want to update you on key changes we have made 
within the FBI's infrastructure to more effectively meet 
today's challenges. We know that the FBI's best and strongest 
asset is our people. So we have paid attention to recruiting, 
training, and maintaining a work force with skills necessary to 
meet the challenges of today's mission. Our hiring goals 
include special agents, intelligence analysts, IT specialists, 
linguists, professional staff. This year we have received more 
than 450,000 applications and have already extended over 5,500 
job offers.
    We are also focusing on other portions of our 
infrastructure from information technology to training. 
SENTINEL, our new case management tool, is being developed and 
deployed on time and within budget. The FBI Academy at Quantico 
continues to train not only new special agents and intelligence 
analysts, but also hundreds of State, local, and international 
law enforcement partners each year, forging essential and 
lasting partnerships in a world where crime and national 
security threats are increasingly global.
    In closing, I would again like to thank the committee for 
your support to the men and women of the FBI and I look forward 
to working with the committee on these and other challenges 
facing our country.

                           PREPARED STATEMENT

    Madam Chairwoman, other members of the committee, I 
appreciate the opportunity to be here today and look forward to 
answering your questions. Thank you, Madam Chairwoman.
    [The statement follows:]

              Prepared Statement of Robert S. Mueller, III

    Good morning, Madam Chairwoman Mikulski, Ranking Member Shelby, and 
Members of the Subcommittee. I appreciate the opportunity to appear 
before you today to discuss the President's fiscal year 2010 budget for 
the Federal Bureau of Investigation (FBI). I would also like to thank 
you for your continued oversight of the Bureau and for your efforts to 
ensure our success as we pursue the shared goal of making America 
safer.
    As you are aware, the FBI celebrated its 100th Anniversary this 
past July. When the FBI was created in 1908, we had 34 investigators 
and a budget of about $6 million. Now, the budget request before you 
today includes over 30,000 employees and over $7 billion. Among the 
factors in this increased budget is the substantial growth in the FBI's 
mission over the past 100 years. We have gone from investigating 
gangsters and spies to terrorists and cyber intrusions. After the 
attacks of September 11, 2001, the FBI's priorities shifted 
dramatically as we charted a new course, with national security at the 
forefront of our mission. The intervening 8 years have seen significant 
changes at the FBI, and we have made remarkable progress. Today, the 
FBI is a stronger organization, combining greater capabilities with a 
longstanding commitment to the security of the United States, while at 
the same time upholding the Constitution and the rule of law and 
protecting civil liberties.

                          2010 BUDGET REQUEST

    The fiscal year 2010 budget for the FBI totals 32,883 positions and 
$7.9 billion, including program increases of 1,389 new positions (407 
Special Agents, 321 Intelligence Analysts, and 661 Professional Staff) 
and $581.1 million. These resources are critical for the FBI to perform 
its national security, criminal law enforcement, and criminal justice 
services missions. Most importantly, the additional funding requested 
will continue to build upon our on-going efforts to integrate and 
fortify our intelligence and law enforcement activities.
    Last year, at the urging of Congress and other oversight entities, 
the FBI altered its budget strategy to identify key end-state 
capabilities based on current and anticipated future national security 
and criminal investigative threats. This capabilities-based approach to 
planning ensures that the FBI possesses the capabilities and capacities 
necessary to address these threats. The FBI's 2010 budget strategy 
builds upon both current knowledge of threats and crime problems and a 
forward look to how terrorists, foreign agents and spies, and criminal 
adversaries are likely to adapt tactics and operations in a constantly 
evolving and changing world. This forward look helps inform and 
determine the critical operational and organizational capabilities the 
FBI must acquire to remain vital and effective in meeting future 
threats and crime problems.
    The FBI is continuing to refine the definition of end-state 
capabilities, including appropriate ``metrics,'' as requested by the 
Appropriations Committees.
    The FBI continues to align its budget with the Strategy Management 
System (SMS) to ensure new resources are tied to our strategic vision 
and goals. Through the SMS, the FBI has struck an appropriate balance 
between its national security and criminal missions, and between short-
term tactical efforts and longer-term strategic initiatives. The 2010 
budget builds upon the initiatives delineated in last year's budget and 
will focus on five critical topics.
    I will highlight some key FBI topics below.

                              INTELLIGENCE

    Over the past few years, the FBI has taken several steps to 
transform its intelligence program. Most recently, the FBI has been 
working to examine how we could accelerate this transformation and 
identify areas where we should focus our efforts. We established a 
Strategic Execution Team (SET), comprised of both headquarters and 
field personnel, to help us assess our intelligence program, evaluate 
best practices, decide what works and what doesn't work, and then 
standardize operations across the Bureau.
    With the guidance of the SET, we restructured our Field 
Intelligence Groups (FIGs), so they can better coordinate with each 
other, with street agents, and with analysts and agents at FBI 
headquarters. Drawing from the best practices that were identified, we 
have developed a single model under which all FIGs will function to 
increase collaboration between intelligence and operations, and to 
provide accountability for intelligence gathering, analysis, use, and 
production. The model can be adjusted to the size and complexity of 
small, medium, and large field offices.
    This consistent process better allows us to share intelligence with 
our partners in more than 18,000 law enforcement agencies around the 
country. We also collaborate closely with our international 
counterparts. And as the world continues to shrink and threats continue 
to migrate across borders, it is more important than ever for the FBI 
to be able to develop and disseminate information that will assist our 
partners.
    We have already implemented these recommendations in 24 of our 
field offices, and anticipate full rollout to the remaining field 
offices by December.
    I cannot emphasize enough that targeted intelligence-gathering 
takes time, and requires patience, precision, and dedication. It also 
requires a unity of effort both here at home and with our partners 
overseas. Intelligence enables us to see the unseen and to discover new 
threats on the horizon. Yet even the best intelligence will not provide 
complete certainty, given the nature and number of threats we face.
    The fiscal year 2010 budget includes 480 positions (41 Special 
Agents, 279 Intelligence Analysts, and 160 Professional Staff) and 
$70.0 million to bolster the FBI's intelligence program. These 
resources will, over time, enable the field offices and headquarters to 
better leverage investigative and analytic capabilities to develop and 
maintain a common understanding of the threat issues they currently 
face. Moreover, these requested resources will allow us to better 
identify emerging threats, asses those threats, and act against them.

                                 CYBER

    Protecting the United States against cyber-based attacks and high-
technology crimes is one of the FBI's highest priorities. In 2002, we 
created the Cyber Division to handle all cybersecurity crimes. Today, 
our highly trained cyber agents and analysts investigate computer 
fraud, child exploitation, theft of intellectual property, and 
worldwide computer intrusions.
    The threat of cyber-related foreign intelligence operations to the 
United States is rapidly expanding. The number of actors with the 
ability to utilize computers for illegal, harmful, and possibly 
devastating purposes continues to rise. Cyber intrusions presenting a 
national security threat have compromised computers on U.S. Government, 
private sector, and allied networks. The FBI is in a unique position to 
counter cyber threats as the only agency with the statutory authority, 
expertise, and ability to combine counterterrorism, 
counterintelligence, and criminal resources to neutralize, mitigate, 
disrupt, and investigate illegal computer-supported operations 
domestically. The FBI's intelligence and law enforcement role supports 
response to cyber events at U.S. government agencies, U.S. military 
installations, and the private sector. Because of this, the FBI has 
partnered with other Intelligence Community and Law Enforcement 
partners with complementary missions to establish the National Cyber 
Investigative Joint Task Force (NCIJTF). The task force is a 
collaborative environment and was designed to identify, mitigate, 
disrupt, and investigate cyber threats. Within the operation of the 
NCIJTF, the FBI serves in a leadership, management, and operational 
role. In this capacity, the FBI is not the sole owner of operational 
activities, allowing operations to be conducted under the leadership of 
other member agency's authorities. The FBI's fiscal year 2010 budget 
includes 260 positions (107 Special Agents, 42 Intelligence Analysts, 
and 111 Professional Staff) and $61.2 million to ensure the FBI has the 
technological infrastructure to conduct investigations and to turn 
seized network information into actionable intelligence products that 
can be used across the Intelligence Community to allow the government 
to move from a reactive to a proactive cyber attack response.

                                CRIMINAL

    As you know, the current financial crisis has taken its toll on the 
U.S. financial markets and the American Public. A portion of this 
crisis is due to fraud and faulty accounting practices. The FBI has led 
and taken part in these types of investigations before. If you will 
recall, the FBI investigated the Savings and Loan (S&L) Crisis of the 
1980s, which crippled our economy, and also led the Enron 
investigation. Many of the lessons learned and best practices from our 
work during the past decade will clearly help us navigate the expansive 
crime problem currently taxing law enforcement and regulatory 
authorities.
    The FBI currently has approximately 250 Agents addressing the 
crisis that could result in over $1 trillion in losses, including 
losses due to fraud and other criminal activities. Last year alone, 
financial institutions wrote off over $500 billion due to losses 
associated with the sub-prime mortgage industry. With the passage of 
recent legislation that includes billions of dollars
    being infused into the U.S. economy, including the Housing and 
Economic Recovery Act (HERA), the Emergency Economic Stabilization Act 
of 2008, the Troubled Asset Relief Program (TARP), and other asset 
relief programs, we anticipate an increase in fraud. In addition to the 
agents that are currently on board, the FBI's 2010 budget includes 143 
new positions (50 Special Agents and 93 Professional Staff) and $25.5 
million to assist the FBI in combating mortgage and corporate fraud.
    We also face significant challenges with regard to violent gangs, a 
nationwide plague that is no longer relegated to our largest cities. 
Since 2001, our violent gang caseload has more than doubled, and in 
fiscal year 2008 alone increased by 273 percent. These cases resulted 
in over 7,792 arrests, 2,839 convictions, 716 disruptions of violent 
gang activity, and 59 dismantlements of neighborhood gangs in fiscal 
year 2008.
    As discussed in the 2009 National Gang Threat Assessment, produced 
by our National Gang Intelligence Center and the National Drug 
Intelligence Center, gangs are increasingly migrating from urban to 
suburban and rural areas and are responsible for a growing percentage 
of crime and violence in many communities. In addition, much of the 
gang-related criminal activity involves drug trafficking. We routinely 
work with our State and local partners to combat this pervasive threat, 
including over 140 Safe Streets Violent Gang Task Forces across the 
country dedicated to identifying, prioritizing, and targeting violent 
gangs. Task forces are extremely important in making the best use of 
available resources, and are used as a force multiplier to increase 
productivity and avoid duplication.

                               TECHNOLOGY

    Although the FBI's information technology systems have presented 
some of our greatest challenges, they have also resulted in some of our 
most significant improvements in the past 8 years. The FBI has made 
substantial progress in upgrading its information technology 
capabilities to help us confront current threats and mission needs. 
Technology is the cornerstone to fulfilling the FBI mission as well as 
creating efficiencies for both FBI personnel and our Intelligence and 
Law Enforcement Community partners. Leveraging technology will allow 
the FBI to provide forensic, analytical, and operational technology 
capabilities to FBI investigators and analysts, law enforcement 
officers, and the Intelligence Community. Without enhanced resources to 
invest in applied research, development, knowledge building, testing, 
and evaluation, the FBI will not be able to take advantage of emerging 
technologies or adapt to a constantly changing and evolving threat and 
operational environment.
    Although I have hired a new Chief Information Officer, Chad 
Fulgham, our priorities have not wavered. As you are aware, the FBI has 
dedicated significant effort towards SENTINEL, a case management system 
that will revolutionize the way the FBI does business. SENTINEL will be 
a fully automated, web-based case management system designed to support 
both our law enforcement and intelligence mission. The system, when 
completed, will help the FBI manage information beyond the case focus 
of existing systems, and will provide enhanced information sharing, 
search, and analysis capabilities. SENTINEL will also facilitate 
information sharing with members of the law enforcement and 
intelligence communities. Phase I of SENTINEL was deployed Bureau-wide 
in June 2007. Phase II is being developed in increments, with the first 
segment to be delivered this April and continuing throughout the 
summer. The remaining phases will deliver additional capability through 
the end of development, in summer 2010.
    The FBI is one of the few agencies that operate on three enclaves--
unclassified, Secret, and Top Secret. We are continuing to deploy UNet, 
our unclassified Internet-connected system, to field offices 
nationwide. When complete, we anticipate approximately 39,000 UNet 
workstations will have been deployed to all FBI locations. We are also 
continuing the rollout of Blackberries to all agents, analysts and 
other critical professional support employees. This has provided these 
individuals with the ability to conduct their daily operational duties 
in the field without being chained to a desk. Their blackberry provides 
them with access to critical Sensitive but Unclassified applications 
they would normally access at their desks, such as email, Internet, the 
National Crime Information Center (NCIC), the Department of Motor 
Vehicles, etc. We are also continuing the technical refreshment of our 
Secret workstations, where most FBI employees conduct their day-to-day 
business. In addition, we continue to deploy SCION, our Top Secret 
network, to headquarters and field offices around the country. 
Strengthening these information technology programs allow us to 
communicate with our law enforcement and intelligence community 
partners in real-time.
    We are also in the midst of developing the Next Generation 
Identification (NGI) system. NGI will expand the FBI's Integrated 
Automated Fingerprint Identification System beyond fingerprints to 
advanced biometrics. It will also produce faster returns of 
information, enabling law enforcement and counterterrorism officials to 
make tactical decisions in the field. Criminals ranging from identity 
thieves to document forgers to terrorists are taking advantage of 
modern technology to shield their identities and activities. This trend 
will only accelerate. Our new system will improve fingerprint 
identification capabilities, and as it becomes cost-effective, 
additional biometric data from criminals and terrorists. It will give 
us--and all our law enforcement and intelligence partners--faster 
capabilities that are more accurate and complete.
    We are also building a Biometrics Technology Center, a joint 
facility with the Department of Defense's (DOD) Biometrics Fusion 
Center, which will serve as the center for biometric research and 
development. This facility will advance centralized biometric storage, 
analysis, and sharing with State and local law enforcement, DOD, and 
others. The FBI is currently working with the DOD in theater in Iraq 
and Afghanistan to collect and search biometrics information. This 
effort has shown the critical role emerging biometric technology has 
played in the war on terror. Information collected in Iraq and 
Afghanistan is transmitted via mobile biometric devices to global 
databases at the FBI Criminal Justice Information Services Division 
main facility, which houses the largest centralized collection of 
biometric information in the world. This biometric information is 
searched and matching results are relayed to units back in the field to 
assist in their operations and investigations. The fiscal year 2010 
budget includes $97.6 million in our construction account to move the 
construction phase of this project forward.
    The FBI must also keep pace with evolving technology. Currently, 
all wireless carriers in the United States are upgrading their networks 
to third Generation wireless technology. This upgrade will radically 
transform voice, internet, email, short message service, multimedia 
services and any future services from circuit-switched data to packet 
transferred data. The FBI, along with the rest of the Intelligence 
Community, has created a Joint Wireless Implementation
    Plan, which will allow us to provide the field with advanced tools 
and technologies as well as provide adequate training on the use of 
duly authorized wireless intercept and tracking tools. The fiscal year 
2010 budget includes $20.5 million to assist us in keeping abreast of 
this cutting edge technology and the ability to counter the technology 
posed by our adversaries.

                             INFRASTRUCTURE

    Critical to the success of the FBI's mission are safe and 
appropriate work environments. Since September 11, the FBI's workforce 
has grown substantially. While the FBI has made considerable effort to 
hire quality personnel, provide the necessary training, and properly 
equip these new personnel, much of the FBI's infrastructure has not 
kept pace. For example, the FBI continues to work to provide secure 
work environments for handling classified information and computers and 
other technology. In particular, there are two construction projects 
that are critical to the FBI's mission which are included in the fiscal 
year 2010 request.
    The FBI Academy, in Quantico, VA was built in 1972, and has not 
undergone major renovation or upgrade since, aside from the addition of 
a dorm in 1988. The Academy is home to new Agents for the first 21 
weeks of their FBI career; is the setting for new Intelligence Analyst 
training; houses the National Academy, which is a professional course 
for United States and international law enforcement officers to raise 
law enforcement standards, knowledge and cooperation worldwide; is the 
venue for the FBI's Leadership Development Institute, which provides 
leadership development education to FBI employees; and is the locale 
for various other FBI training opportunities. The Academy is 
continuously operating at maximum capacity, which leaves little 
opportunity for both scheduled and unscheduled renovation--a necessity 
due to the age of the Academy. The fiscal year 2010 budget includes $10 
million for an Architectural and Engineering (A&E) study, which will 
help us determine the full scope of renovations/construction necessary.
    In addition, we are in dire need of a Central Records Complex 
(CRC), which will consolidate and digitize FBI records now dispersed 
among 265 FBI locations worldwide. The CRC will enable us to 
efficiently locate and access all of our records quickly, thus allowing 
us to more effectively process name checks, as well as provide critical 
case and administrative data that can be used for intelligence and 
investigative purposes. The fiscal year 2010 budget includes $9 million 
to prepare these records to be universally-searchable, accessible, and 
useful intelligence and investigative tools prior to relocation to the 
CRC.

                               CONCLUSION

    Chairwoman Mikulski, I would like to conclude by thanking you and 
this Committee for your service and your support. Many of the 
accomplishments we have realized during the past 8 years are in part 
due to your efforts and support through annual and supplemental 
appropriations. Unlike the FBI of 1908, today's FBI is much more than a 
law enforcement organization. The American public expects us to be a 
national security organization, driven by intelligence and dedicated to 
protecting our country from all threats to our freedom. For 100 years, 
the men and women of the FBI have dedicated themselves to safeguarding 
justice, to upholding the rule of law, and to defending freedom. As we 
look back on the past 100 years, we renew our pledge to serve our 
country and to protect our fellow citizens with fidelity, bravery, and 
integrity for the next 100 years, and beyond.
    From addressing the growing financial crisis to mitigating cyber 
attacks and, most importantly, to protecting the American people from 
terrorist attack, you and the Committee have supported our efforts. On 
behalf of the men and women of the FBI, I look forward to working with 
you in the years to come as we continue to develop the capabilities we 
need to defeat the threats of the future.

    Senator Mikulski. Mr. Director, we also want to note that 
Senator Lautenberg, one of our real active members, has joined 
us. Senator, I'm going to ask questions for a few minutes and 
then turn it over for comments and your questions as well.
    Senator Lautenberg. Thank you very much, Madam Chairman. 
It's been a privilege to work with you as chairman over lots of 
years. Senator Mikulski is someone who knows how to hit the 
ball, hit it far and deep. We always----
    Senator Mikulski. Better than the Orioles.
    Senator Lautenberg. We always like being with her at 
committee hearings and other places.
    Mr. Mueller----
    Senator Mikulski. Senator, I haven't asked my questions, so 
I'm going to lead off with my questions.
    Senator Lautenberg. Okay. I'm sorry, I misunderstood.
    Senator Mikulski. I was just welcoming you. Let me get 
right to my questions and then we can get to other members as 
they come. First, I'm going to ask a question that is mundane 
and yet significant. This goes to another job we have in this 
CJS Subcommittee, which is making sure that the census is done 
on time. The census needs to be done on time and it's had 
significant technological failure and will need to be more 
manpower intensive.
    Is the FBI ready? With all of the security clearances or 
background checks that it's working on, will the FBI have 
sufficient ability to process the significant thousands of 
numbers of people that we have to hire to take the census? 
Remember, we're going to have people in every community saying: 
I'm from the government; I'd like to ask you some questions. 
Which means they'll be exposed to vulnerable populations, and 
we need to make sure they have had rigorous background checks.
    Also, have you worked with the Census Bureau to make sure 
we'll be able to work at the State and local level to make sure 
that there will not be people imitating the census people? I 
think that's actually also a question for Secretary Locke.
    You know, I worry about the FBI in so many ways, about 
having the resources. But really, with the new administration, 
you're working doubletime on doing background checks. While 
we're going to talk about mortgage fraud and fighting 
terrorists and stopping trafficking of human beings, we've got 
the FBI doing all these background checks.
    So let me start with the census and ask, will you be able 
to meet the needs, because it will require a surge capacity?
    Mr. Mueller. Let me start, Madam Chairwoman, if I may, by 
saying that in the budget we've requested resources for agents 
and others to enhance our capability to do background checks 
generally, because it comes out of our other programs, and at a 
time like this, with a new administration, we take a great deal 
of resources and put them on the background checks. So our 
budget request for 2010 does include resources there.
    Turning to the census, we began working with the Census 
Bureau----
    Senator Mikulski. You say that in order to vet the 
administration's new people you do have the resources to do the 
background checks?
    Mr. Mueller. We do it now, but we take it--again, we 
prioritize, but I think you will find that the administration 
is quite satisfied with the pace of our background checks on 
the nominees that they've proposed. But it does take resources 
from other----
    Senator Mikulski. But it's a strain on the FBI to do this?
    Mr. Mueller. It is a strain on particular offices. That is 
why we have specifically asked for additional resources down 
the road in 2010 to address the background checks. The current 
nominees, we have effectively, efficiently, and in a timely 
manner provided the backgrounds necessary to move forward and 
place persons in positions in this administration.
    Let me move if I could to the issue of the census. In 
response to your letter of April 30, we have a response here 
today, we provided a copy to your staff, that addresses those 
questions in more detail. In brief, I can tell you that since 
2007 we have been working with the Census Bureau on this 
particular issue. We anticipate that there will be something 
like 4.5 million names that we will have to run through records 
checks, and we are working with the Census Bureau in a number 
of ways to assure that this could be done efficiently.
    First, we have established communications lines with the 
Census Bureau so that we can talk and exchange information 
quickly. We have had some difficulties with the quality of the 
fingerprint submissions to date and we are working with the 
Census Bureau to make certain that we improve and increase the 
fingerprint submissions. We are increasing our capabilities at 
IAFIS, our fingerprint facility out in West Virginia, and we 
are also anticipating peak processing periods where we will 
have to put on additional persons to respond to requests that 
will come in in some volume at particular points in time in the 
growth of the work force for the taking of the census.
    So with that in place, I think we, with the Census Bureau 
are satisfying the need to make certain that we are responsive 
to their needs.
    The other issue that you raise and have raised before, and 
that is individuals masquerading as census takers. We intend to 
be alert to that, to work with our field offices to very 
swiftly respond to any indications of that type of fraud, and 
move quickly to investigate, turn it over to the prosecutors, 
so that those individuals who would undertake that activity 
would be prosecuted.
    Senator Mikulski. Well, I think that's fantastic. I don't 
want to dwell on this, but I want the record to show, number 
one, the Census Bureau will hire 1.5 million workers. This is 
while we're also screening for Cabinet-level positions and 
other security clearances. So we're asking the FBI to do a lot. 
I know this is not the kind of question that, oh, everybody 
comes and wants to be on CNN, but it's really significant. And 
the FBI only has so many people.
    So we thank you for your response to this. We're going to 
take your letter that is a formal answer to the question and 
with unanimous consent include it in the record. As we move on, 
I believe you and Secretary Locke really are ready to do this. 
So thank you.
    [The information follows:]
                                U.S. Department of Justice,
                                      Washington, DC, June 3, 2009.
Hon. Barbara A. Mikulski,
Chairwoman, Subcommittee on Commerce, Justice, Science and Related 
        Agencies, U.S. Senate, Washington, DC.
    Dear Madam Chairwoman: I am writing in response to your letter 
dated April 30 concerning the FBI's ability to conduct fingerprint 
searches and name-based background checks on temporary employees to be 
hired in support of the 2010 Census. You requested specific information 
regarding steps the FBI is taking to guarantee that the 2010 Census 
will not be delayed due to these necessary background checks; how the 
increase in workload will affect the FBI's background check system and 
the associated human resources; and if there will be any additional 
costs incurred in order to conduct these checks in a timely manner.
    The U.S. Census Bureau currently estimates that 4.6 million names 
will be forwarded to the FBI for background checks and 1.4 million 
fingerprint cards will be electronically submitted to search against 
the FBI's Integrated Automated Fingerprint Identification System 
(IAFIS). Recognizing the significant challenge of this undertaking, the 
FBI's Criminal Justice Information Services (CJIS) Division and the 
U.S. Census Bureau have been working together since 2007 to ensure that 
the background check process does not adversely affect the conduct of 
the 2010 Census.
    These preparations include the following:
  --Submission of Names and Fingerprints by the U.S. Census Bureau.--An 
        efficient and effective process for the submission of names and 
        fingerprints by the U.S. Census Bureau is essential. The CJIS 
        Division recently enhanced its telecommunications 
        infrastructure that connects to the U.S. Census Bureau in 
        Bowie, Maryland, in order to support the volume of information 
        expected to be submitted. A second telecommunications line will 
        be temporarily installed in Bowie as a backup to ensure there 
        is no interruption in service. In addition, the CJIS Division 
        recently traveled to the U.S. Census Bureau's National 
        Processing Center in Jeffersonville, Indiana, to observe the 
        fingerprint scanning process, participate in mock training 
        sessions for employees involved in the background check 
        process, and provide feedback regarding those activities.
  --Improving the Quality of U.S. Census Bureau Fingerprint 
        Submissions.--The CJIS Division is working closely with the 
        U.S. Census Bureau to improve the quality of its fingerprint 
        submissions. Historically, rejection rates for all fingerprint 
        submissions have been relatively low, with the fiscal year 2008 
        rate less than 5 percent. To date, submission rejection rates 
        for the 2010 Census average over 40 percent, with peaks above 
        60 percent. Substandard submissions create a number of 
        problems, including the need to resubmit the fingerprint 
        information, utilization of an inordinate amount of system and 
        human resources to resolve borderline submissions, and an 
        increase in the potential for missed identifications of 
        applicants who should be disqualified. In the past, there have 
        also been instances where high rejection rates of U.S. Census 
        Bureau search requests have resulted in degradation in the 
        required 2-hour response time for criminal justice submissions.
      During the on-site visit to the U.S. Census Bureau's National 
        Processing Center, CJIS Division representatives suggested that 
        the U.S. Census Bureau activate the image quality functions on 
        all scanners to reduce the frequency of inferior quality images 
        being submitted to the IAFIS. This built-in functionality 
        alerts U.S. Census Bureau personnel of potential fingerprint 
        sequence errors and insufficient image quality, thus providing 
        the opportunity for corrective action prior to electronically 
        transmitting images to the IAFIS. Such a change in procedure 
        would preserve U.S. Census Bureau and CJIS Division personnel 
        resources, as well as allow the U.S. Census Bureau to avoid 
        additional user fees from the resubmission of fingerprint 
        images.
  --Upgrading Components of the IAFIS.--The CJIS Division is currently 
        upgrading many components of the IAFIS. These upgrades, while 
        primarily directed at the future growth of fingerprint 
        submissions and expansion to include other biometric-related 
        submissions, will also benefit the 2010 Census. These benefits 
        will include larger storage capacity and a faster, more 
        reliable network for all CJIS systems.
      The increased workload from the 2010 Census will, for the most 
        part, not adversely affect the FBI's regular background check 
        system. The name-based background checks and fingerprint checks 
        submitted in support of the 2010 Census can be accommodated by 
        the current IAFIS in all but the peak processing period.
  --Peak Processing Periods.--As previously noted, the U.S. Census 
        Bureau projects that nearly 4.6 million name-based search 
        requests will be forwarded to the FBI. Subsequent to the name-
        based checks, 1.4 million fingerprint cards will be 
        electronically submitted for a search against the IAFIS 
        database. Although fingerprint submissions will occur from 
        December 2008 through 2011, there will be an extremely elevated 
        submission rate during April 28-30, 2010. During this 3-day 
        time period, the U.S. Census Bureau expects to submit 
        approximately 485,000 fingerprint background checks to the CJIS 
        Division. This is in addition to the FBI's current daily 
        average fingerprint workload of 175,000 submissions. The U.S. 
        Census Bureau workload estimate does not reflect the projected 
        30 percent rejection rate due to fingerprint submissions of 
        insufficient quality. If the suggestions for improvement in 
        fingerprint quality discussed above are not successful, the 
        U.S. Census Bureau submission numbers could grow to over 
        600,000 for this 3-day period.
  --Mitigating Actions Planned.--The FBI will take several steps to 
        ensure timely processing of the U.S. Census Bureau submissions 
        during the peak period without adversely affecting submissions 
        from other agencies. The CJIS Division plans to temporarily 
        redirect staff during the peak processing period and will 
        provide overtime compensation and other incentives, as 
        necessary, to ensure the availability of adequate staff. In 
        addition, the CJIS Division has coordinated with other agencies 
        to adjust the processing of their submissions to accommodate 
        the anticipated fingerprint submissions from the U.S. Census 
        Bureau. Specifically, CJIS plans to queue nonurgent 
        transactions from other agencies during April 28-May 2, 2010. 
        All users of IAFIS have been notified, through the CJIS 
        Advisory Policy Board and the Compact Council, that during 
        April 28-May 2, 2010, various types of noncriminal justice 
        transactions will be held in queue for processing until May 3, 
        2010. In addition, processing for some criminal transactions 
        considered to be nonurgent in nature will be limited during 
        this time period. There will be no degradation in service to 
        the criminal justice community as a result of these actions.
    In response to your inquiry regarding additional costs to the FBI 
to support the 2010 Census, the CJIS Division is currently upgrading 
many components of the IAFIS. These upgrades will provide larger 
storage capacity and a faster, more reliable network. The CJIS Division 
estimates the costs of these upgrades to be approximately $70 million 
and, while primarily directed at the future growth of fingerprint 
submissions and expansion to include other biometric-related 
submissions, these upgrades will also benefit the 2010 Census. This 
cost will be offset by approximately $34 million in fees to be paid by 
the U.S. Census Bureau, for a net cost to the FBI of approximately $36 
million.
    The FBI appreciates your interest regarding the potential risks 
posed as temporary U.S. Census Bureau employees visit the homes of the 
general public and will take all steps necessary to support the 
processing of background checks for the 2010 Census. To this end, it is 
crucial that the U.S. Census Bureau commits to capturing fingerprints 
of sufficient quality to assist the FBI in identifying perpetrators of 
criminal acts and terrorist-related crimes.
    I hope this information will be of assistance to you.
            Sincerely Yours,
                                    Robert S. Mueller, III,
                                                          Director.

    Senator Mikulski. This then takes me to the issue of 
sufficient agents. In your testimony you said that after 9/11, 
2,000 of your criminal agents were moved to the National 
Security Branch, and they did a spectacular job. However, ``It 
reduced our ability,'' you say, ``to surge resources within our 
Criminal Branch and meet existing and emerging threats.'' What 
we want to do is begin to help the FBI balance the multiple 
demands on it. We want you to be vigorous and stand sentry over 
these international predatory and even domestic threats. But we 
really want the FBI to continue to be the FBI that we know and 
love and count on, which is domestically.
    In the President's budget you're given more resources. You 
have 450,000 applicants, that's a pretty amazing number. Do you 
have enough money to hire enough agents to do what you need, 
not only in the National Security Branch, but again to in some 
ways recapitalize our criminal enterprise area of the FBI?
    Mr. Mueller. We always have to prioritize. We did before 
September 11, depending on the surge of crime in the country 
before September 11. Our budgets in the last couple of years 
and this one seek additional resources, agents, principally in 
the cyber arena, as well as in mortgage fraud. We have received 
additional agents in those areas in years past. We could always 
use more agents. We have probably more than 530, I think, 
agents working mortgage fraud, corporate fraud, securities 
fraud at this juncture. Back in the savings and loan crisis, 
again in the early 1990s, we had almost 1,000.
    Now, we have become, I believe, more effective in 
addressing white collar criminal cases by understanding that we 
need to move quickly and to bring them to fruition more quickly 
than we have in the past, and using computers and databases and 
intelligence capabilities to focus on and prioritize those 
cases. But nonetheless, we could always use more resources 
there.
    Again, one thing that should not be lost, though, is that 
it's not just agents; it's the infrastructure for the agents.
    Senator Mikulski. Right.
    Mr. Mueller. We can--I will say, over a period of time 
Congress has allocated to us agents, but what you need with 
those agents is the supporting infrastructure, the intelligence 
analysts, the professional staff, the training. So it's not 
just a focus on agents itself, but on the support that the 
agents need. In our budget request, we have focused on 
expanding the academy. We have funds in here for security 
training and career paths. We have funds in here for 
intelligence, and it's not just intelligence for the national 
security mission, but also for the criminal mission.
    So it's not just the agents we need, but it's also the 
infrastructure to support the additional agents on the criminal 
side.
    Senator Mikulski. Well, thank you. I'm going to follow up 
on a second round, but I'd like to turn to Senator Lautenberg.
    Senator Lautenberg. Thank you, Madam Chairman. The comments 
I made earlier I assume stand in the record, about the guidance 
and the leadership of the chairman.
    Mr. Mueller, we have great respect for you. You have 
treated the position, that it gains I think more honor for a 
very distinguished group of people who we count on so dearly.
    With 9/11, we learned that we have to be on guard 
constantly and, I might say, deeply with threats that come to 
our country. I was just in Turkey and the prime minister there 
decreed that one of the organizations that we have on the 
terrorist list, one of the countries, that he sees no problems 
with it. I found it really disturbing because when you look at 
the forces that we put together to fight against terrorism, it 
numbers in the hundreds of thousands of people. I think the 
chairman made reference to that.
    So I thank you and the people who serve with you for your 
diligence and hard work and commitment to duty.
    I want to commend the FBI for the recent sting operation 
that resulted in the arrests of four men plotting to bomb 
synagogues in New York City. As you're aware, Federal law 
actually allows individuals on the terror watch list to 
purchase a gun or even explosives, unless they have some other 
disqualifying factor such as being a felon. In response to a 
letter that I sent you in 2005, the Department of Justice 
recommended giving the attorney General the power to deny guns 
and explosives to terror suspects. Yet we still have the 
condition that existed then.
    Isn't it time to close the terror gap in our laws?
    Mr. Mueller. Denying a weapon to somebody who's not 
convicted of an offense or subject to a psychiatric disability 
and the like is an issue that has been debated over the years. 
I would have to defer to the Department of Justice in terms of 
the current position on to what extent the identification of an 
individual as being associated or affiliated in some way with 
terrorism should bar that individual from obtaining a weapon.
    We are notified when there appears to be a purchase by 
somebody who is affiliated with a terrorist group. But that is 
different than barring that individual from the outset from 
purchasing a weapon. But again, I have to defer to the 
Department of Justice in terms of the policy position that it 
is going to take on that issue.
    Senator Lautenberg. You know, I've been a long-time 
supporter of closing the gun show loophole, which permits 
unlicensed dealers to operate without any responsibilities 
about the person they are considering selling a gun to. They 
don't have to ask a question about name, no identifying, 
address, any background. We came awfully close some years ago 
in closing that loophole. Every time we see a situation develop 
where someone gets a gun, often illegally, and goes ahead and 
kills somebody because they're angry or otherwise--and lots of 
times these things are purchased, as was in Columbine, by 
someone underage and without any qualifications.
    How do you feel about the gun show loophole?
    Mr. Mueller. Again, I'm going to defer to the Department of 
Justice. It's a policy issue that is made generally by the 
administration and by the Department of Justice.
    Senator Lautenberg. Let me ask you then, do you think that 
we would be safer if there was regulatory jurisdiction on 
unlicensed dealers?
    Mr. Mueller. I believe there are arguments on both sides of 
that. From the parochial law enforcement perspective, fewer 
guns is better, from the perspective of law enforcement. On the 
other hand, this is a country which has so many guns at this 
point. You can't compare it to a European country that has had 
centuries--not centuries, because you haven't had guns hundreds 
of years, but certainly decades of stringent gun enforcement.
    So you can argue both sides of that, and again I defer it 
to the Department of Justice.
    Senator Lautenberg. I don't want you to do that. I don't 
want you to argue both sides. You're a man of honesty and good 
judgment. So we'll pass it.
    Madam Chairman, may I have just a few minutes more, please?
    Senator Mikulski. Go right ahead.
    Senator Lautenberg. Thank you.
    The FBI, as you know, identified the stretch between Port 
Newark and Liberty International as the most dangerous 2 miles 
in America. That was for a terrorist attack. An attack on this 
2-mile area could cause untold suffering, death, injury, but 
crippling also the economy by disrupting major portions of the 
country's rail lines, oil infrastructure. We'd shut down the 
air traffic system, communications, all of these things.
    Now, how will the FBI use these resources? I for one think 
that there's no question but that we have to respond to your 
request for a budget that gives you more--a better facility and 
more people. How will the FBI use the resources in that request 
to protect, further protect this 2 miles?
    Mr. Mueller. The resources we're requesting, whether it be 
a WMD response or cyber security, we have requests in for 
enhanced surveillance and we've got requests in for enhancing 
as I may have mentioned, our intelligence program, and national 
security investigations across the country.
    But the understanding of the vulnerabilities of that 2-mile 
stretch has been longstanding. Not only us; by DHS too. There 
are a number of pieces that have been put in place already to 
protect it, amongst them the Joint Terrorism Task Force in 
Newark, which works closely not only with State and local 
counterparts in Newark and northern New Jersey and New Jersey 
as a whole, but also with New York.
    On that Joint Terrorism Task Force are airport liaison 
agents that operate Newark International Airport. We have 
maritime liaison agents that are looking at the maritime 
vulnerabilities. We have an area maritime security committee 
for the Port of New York and New Jersey that is a separate 
entity addressed specifically to those issues. We also have 
coordination with the rails, the railroad companies, and on the 
national railroad system.
    Senator Lautenberg. Not meaning to interrupt, but what 
will--will the additional funds being requested help us be more 
effective in our terrorist act prevention role?
    Mr. Mueller. It will, in two specific ways. One, in terms 
of additional resources, special agents, professional staff and 
others, to conduct investigations or follow leads when we get 
counterterrorism leads; the other area, providing additional 
resources to build up our intelligence capability with special 
agents, with intelligence analysts, and with professional 
staff, that will increase our ability to gather insight into 
potential threats, including potential threats to this strip in 
northern New Jersey.
    Senator Lautenberg. The gun show loophole, as I described, 
allows just about anybody to walk in and buy a gun, including 
an assault weapon. Yet criminal background checks can be 
completed in a matter of minutes. Shouldn't we require criminal 
background checks for all gun purchases at all gun shows?
    Mr. Mueller. Again, I think I incorporate my answer before. 
You can argue both ways, but this is an issue that is a policy 
issue that's left really to the Department of Justice. Whatever 
policy arguments are made by the Department of Justice I will 
be supportive of.
    Senator Lautenberg. Mr. Mueller, you're too good for 
passing that ball. I don't want to put you in a spot here, but 
your opinions--and I don't know how guarded you have to be when 
throwing out an opinion.
    Mr. Mueller. I can tell you, as I said before, from the 
perspective of law enforcement, fewer guns and the ability to 
track guns enhances our capabilities.
    Senator Lautenberg. Madam Chairman, you know very well that 
I wrote the law to prohibit spousal abusers from getting 
Federal gun permits. When I fought the legislation through, it 
was 1996 and they said: Ah, you don't need it, and so forth. 
And I did it in a way that it had to come up for a vote. 
Reluctantly on the part of many here, the bill was passed into 
law.
    We have since 1986, since I wrote that law, we've had over 
150,000 household bullies denied gun permits, and having to 
fight the fight with that was a terrible----
    Senator Mikulski. How many?
    Senator Lautenberg. 150,000. 150,000 of these household 
bullies have been denied gun permits.
    Senator Mikulski. First of all, that's a great term, 
``household bully.'' But 150,000 people probably meant you 
either saved a spouse, a child, or a law enforcement officer 
coming to their rescue.
    Senator Lautenberg. That's the case, and the first 
conviction came from a fellow who was a U.S. attorney in 
Denver, Colorado, whom I knew, and he called me up. He was so 
cheerful. He said: Frank, I've got great news; we just 
convicted one of these guys, a spousal abuser, and he got a 
3\1/2\ year term for having acquired a gun, and had been only 
with a misdemeanor conviction only. Felons can't get them.
    Anyway--and I'll close, Madam Chairman. The FBI's Newark 
Division covers all New Jersey counties except for three that 
are covered by Philadelphia. The split hinders, I am told, New 
Jersey's ability to have a unified strategy for combating 
crime, including gangs and gun violence, is at odds with the 
U.S. attorney's office and the ATF, both of which cover the 
whole State.
    Would you commit to working with our office and the New 
Jersey Attorney General's Office to take a look at this issue 
and see if we can improve the operation by having it more 
carefully managed by the New Jersey headquarters?
    Mr. Mueller. I understand there have been ongoing 
discussions with Ann Milgram, who's a very good State's 
attorney, on that particular issue, as well as the issues 
relating to the Philadelphia area. It's Camden we're talking 
about, and Philadelphia. I believe we're working through those 
issues. They are complicated in some sense because, what I have 
come to find, that criminals don't really care about the 
borders. Criminals in Camden and Philadelphia don't really care 
that Camden may be in New Jersey and Philadelphia is in 
Pennsylvania. Gangs can operate very swiftly across borders. 
You see it here in this area with the District of Columbia and 
Maryland or the District of Columbia and Virginia, and they 
don't care about these borders.
    For us to be effective, one of the things we can bring to 
law enforcement is the oversight of bringing the intelligence 
together from two separate entities, two States, in an area 
where criminals don't care about the different States. In order 
to be effective in reducing and investigating and locking up 
gang members, for instance, you need that overview.
    That's one of the issues that we're discussing with the 
Attorney General of New Jersey and we do want to work through 
it and come up with a resolution, because I do understand from 
her perspective the desire to take care of her State and the 
responsibility she has working with the New Jersey State Police 
and the like. So there are some conflicting issues there that 
we're working through.
    Senator Lautenberg. Thank you, Madam Chairman.
    Senator Mikulski. Thank you.
    If you intend to leave and join us for the classified 
hearing, we're going to be finished with this part in about 15 
minutes and we'll resume. We're going to move up the classified 
hearing. So we'll move that up to quarter of 11 o'clock, and 
that way the Director will be able to expedite our conversation 
and also leave you to be on your way to fight crime and 
predators and for truth, justice, and the American way.
    But in the meantime, a couple of more questions. I really 
value your comments in which you said that, yes, we need more 
special agents, but we need more intelligence analysts, more 
professional staff, and we need the resources to properly train 
them. I'd like to talk about training and technology and the 
situation at Quantico, which is kind of like the Naval Academy 
at Annapolis or West Point. You are the FBI Academy.
    Let's go to technology. Really the major tool of the trade 
today to do so much about what you're asked to do is new uses 
of technology. We had a rough time with SENTINEL, where we had 
to start all over again. Could you brief the committee, number 
one, on the fact that you've hired a new CIO, and also where we 
are on SENTINEL? As you know, we did have to start again, at 
considerable cost to the budget. So are we on time, on line, 
and ready to do the job?
    Mr. Mueller. Yes, ma'am. The failure was on what was called 
the Virtual Case File system early in this decade, where it had 
been put together early on without understanding our needs and 
ultimately did not satisfy our needs and at bottom would not 
work. The SENTINEL project that's been ongoing for 2, 2\1/2\ 
years now is on target to finish in I think 2010 and is within 
budget.
    There have been adjustments that have been made along the 
way because we've done it in phases, the understanding being 
that I wanted to make absolutely certain that the first phase 
worked and that we laid the groundwork for the second phase and 
then the third and the fourth phase. We're finishing up the 
second phase now and, as I say, we've done I believe a good job 
of developing this, shifting internally to the program to take 
advantage of lessons that we've learned from phase one so that 
we can make improvements in phases two, three, and four.
    I will tell you that our work with the contractor, Lockheed 
Martin, has worked well. I meet with the CEO of Lockheed Martin 
every 6 months to make certain that both of us know that it's 
on track and that any issues or glitches will be addressed by 
both of us. It has been a very worthwhile relationship.
    So I am comfortable and confident that we are on the right 
track.
    Senator Mikulski. When will SENTINEL be done? I mean, when 
will you have completed it?
    Mr. Mueller. I believe the last date is--it's the summer of 
2010. I will tell you, just so that you know, we are going 
through right now one of the more challenging phases, and that 
is, without getting into the specifics, but moving databases, 
making certain that the security is adequate and the like. So 
our expectation is that it will be done by summer of next year, 
2010. But we are going through some of the toughest periods.
    Senator Mikulski. Well, as you say in your written 
testimony that you submitted: ``The FBI is one of the few 
agencies that operates in three enclaves in terms of the net: 
unclassified, Secret, and Top Secret.'' Which also means the 
case management files have to operate at those three enclave 
levels. Am I correct in that?
    Mr. Mueller. You're correct. Right now SENTINEL will go 
generally at the second level, which is the Secret level. We're 
putting in place plans to expand it to the other levels.
    Senator Mikulski. Now I want to go to the next one, which I 
found really surprising here. It said you are now going on 
something called the UNet, which is your unclassified Internet 
connect system, and you're now giving every agent a BlackBerry. 
Is that correct? I thought----
    Mr. Mueller. I think we have something like----
    Senator Mikulski. Do you mean every agent doesn't have what 
everybody else has?
    Mr. Mueller. No, everybody--all persons, whether it be 
agents or analysts, who profitably can use the BlackBerry in 
the course of their work have a BlackBerry. I think it's over 
20,000 at this juncture BlackBerries throughout the Bureau. And 
we have additional capabilities that we're including, in other 
words access to CGIS databases that will make the BlackBerry 
not only indispensable as it is to communications, whether it 
be email and otherwise, but also to data that the agent can use 
in the course of their day to day activities.
    Senator Mikulski. It says things like the National Crime 
Info Center, DMVAs around the country----
    Mr. Mueller. Yes.
    Senator Mikulski. Things that when they're in the process 
of doing it they need to be able to access unclassified 
databases, would help them do their job, etcetera. Is that 
correct?
    Mr. Mueller. That is correct. One needs to keep in mind, 
however, security.
    Senator Mikulski. Yes.
    Mr. Mueller. When we're developing these new communication 
tools, everybody wants, including myself--and I tend to be 
impatient--the new communications tools. But we have to do it 
understanding that we need to put into place the requisite 
security to assure that if a particular BlackBerry becomes 
infected with malware or otherwise it does not give persons 
access to the system as a whole. Consequently, as we have built 
these various systems we have given the appropriate attention, 
I believe, to the appropriate security to assure that they are 
safe from intrusions.
    Senator Mikulski. Well, that's excellent. But I want to go 
through the lessons learned from the debacle that took us to 
SENTINEL. I believe there are a lot of lessons that you've just 
even articulated, Mr. Director. But you're about to embark upon 
several new initiatives. You're developing the Next Generation 
Identification System that will expand the FBI's Integrated 
Automated Fingerprint ID System. You're building a new 
Biometrics Tech Center. Biometrics is supposed to be one of the 
latest and greatest in terms of identifying people.
    Also, the private sector is developing new wireless 
technology, in which you need to be able to help us to deal 
with cyber intrusions, cyber attacks, et cetera.
    So here is my question. Not only are you in the human 
development, but you're in the technology development. Human 
development is the special agents, the intelligence analysts, 
the professional staff. But this tech development we've got to 
get right the first time and do it--because we only can do this 
once now. We're really running severe deficits. We cannot ever 
go back if we screw up.
    What steps are being taken--and we don't have to detail it 
in each area; maybe you want to submit a more formal 
statement--so that we do not end up in other techno 
boondoggles, quite frankly? It's a blunt term. I don't mean it 
to be a stinging term, but we've got to protect the American 
people by making sure the FBI has the right tools, and that's 
technology. That's as important to you now as carrying a gun; 
am I correct?
    Mr. Mueller. Yes.
    Senator Mikulski. You can always get a new gun, but you 
can't go back and redo technology.
    Mr. Mueller. Yes. Well, the Virtual Case File, let me just 
start there, with trilogy. It was part of a trilogy system to 
upgrade our capabilities. The other prongs of that or the other 
legs of that stool work exceptionally well and we have had a 
history, although occasionally overlooked, of developing 
databases and having them work effectively and efficiently. 
Fingerprints is one of them. DNA is another one.
    Over the years the FBI has been on the cutting edge of 
developing technology for use in law enforcement, and I believe 
we continue to do so, and that history will be extended with 
the new Biometric Technology Center, with the upgrading of our 
fingerprint capabilities. My full expectation is that they will 
be as successful as they have been in the past.
    The SENTINEL and several other packages that we have 
developed to handle our sources, to handle our intelligence 
requirements, are coming on line this year and the next and I 
believe will be not only successful, but will be models for 
others.
    That's internally. If you look externally at our expertise, 
our ability to investigate cyber intrusions and the like, I 
believe we are ahead of just about every other agency in the 
world in terms of our capabilities, our experience, our 
expertise, and having the tools to utilize those skills to 
identify--well, investigate, identify, and then attribute cyber 
attacks. So whether it be internally to our information 
technology or externally to address some of the technology 
developments, I believe we are on course to be successful.
    Senator Mikulski. Well, thank you. The actual policy and 
people issues we're going to talk about in the next classified 
hearing, because I think they're quite sensitive.
    First of all, we want to work with you on that because it 
is a major public investment to accomplish a pretty significant 
public good.
    I also want to note the issue that is part of the training 
for our FBI personnel. We want to support the effort to 
modernize Quantico. I'd like the record to show, as is in the 
statement of the FBI Director, that the Quantico, Virginia, the 
famous FBI Academy, was built in 1972. It has not undergone any 
renovations since we added a new dorm in 1988. So this is the 
FBI, the Federal Bureau of Investigation. We haven't done 
anything substantial in 37 years in terms of the physical 
facilities--the last thing we did was 20 years ago and it was a 
dorm that was wired for the pre-.com world.
    We can't bring talented, smart people that you're 
recruiting with all kinds of backgrounds and bring them into a 
dated facility. I want you to know, Mr. Director, as well as 
the people who serve at the FBI and those who are coming to the 
FBI, that we're on your side on this one.
    We understand in the budget request you ask for $10 million 
to take a look at what is needed, so that we can upgrade the 
facilities with not only buildings with bricks and mortar, but 
modems and clicks, so that we can really do the kind of 
training necessary, because, as you said, it's one thing to 
bring in the people, but we've got to get them ready for the 
job, which means new threats, new challenges. But we need new 
facilities to do it.
    So I'm going to pledge to you right now. We will support 
you in your people. We're going to support you in your 
technology, and we're going to support you in making sure that 
we truly have a 21st century FBI Academy.
    So there are other things I'm going to talk about. We're 
going to take a temporary recess. I also am going to reiterate 
what Senator Shelby said about the joint task forces at the 
State and local level. Those in Maryland are operating 
superbly. I'd like to compliment the Baltimore Field Office on 
this. I'd like to compliment the U.S. attorney, Rob Rosenstein, 
who has also coordinated some of this in our work with the 
District U.S. attorney. But my local law enforcement, from the 
police commissioners to the sheriffs and so on, just think 
these task forces are an amazing tool to get value and leverage 
the law enforcement effort. As you said, particularly in the 
capital region, whether it's Montgomery County or Prince 
George's County or going over to Northern Virginia, it's some 
pretty rough stuff going on. There seems to be like a 
brotherhood of the Beltway, if you will, that comes out of 
these joint task forces. We just want to reiterate, we want to 
support that effort while we're working on these other issues.
    Before I recess us to take us to the classified hearing, is 
there anything you would like to add? Is there anything you 
didn't have a chance to say? Some questions or answers you've 
thought of that you'd like to share?
    Mr. Mueller. No. One thing I believe I'd like to respond 
briefly to, what Senator Shelby said about TEDAC. TEDAC is an 
important facility for IEDs. As he points out, we have had to 
prioritize and we are looking forward to further discussions in 
terms of funding to expand our capabilities in that regard. So 
we appreciate the input and the support.
    Senator Mikulski. Thank you very much, and the record will 
so show that.

                     ADDITIONAL COMMITTEE QUESTIONS

    Now, if there are no further questions this morning, 
Senators may submit additional questions for the subcommittee's 
official record. We request the FBI's response within 30 days.
    Mr. Mueller. Thank you. Thank you, Madam Chairwoman.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

               Questions Submitted by Senator Mark Pryor

    Question. Can you talk about the specific activities you plan to 
carry out with the additional funding? Will you increase FBI field 
office involvement in these sorts of investigations? Hire additional 
agents and accountants?
    Answer. The $25.5 million in requested funding for mortgage fraud 
would enable the FBI to increase its available field investigative 
assets by 50 Special Agents and 61 Forensic Accountants. These 
additional resources would increase the FBI's ability to address 
mortgage fraud and sub-prime related corporate fraud through increased 
investigations and higher quality evidence production. This funding 
would provide the FBI with the resources necessary to expand its 
document management systems, allowing the FBI to expedite document 
analysis and add more robust analysis capabilities. Given the central 
role of document analysis in white collar crime investigations, the FBI 
anticipates that these enhancements would contribute significantly to 
the FBI's efforts to address mortgage fraud and sub-prime related 
corporate fraud. Finally, this funding would allow the FBI to address 
the non-personnel aspects of our current task forces and working 
groups, and to add new ones as appropriate. Given the advantages of the 
close working relationships the FBI has established with State, local, 
and other Federal law enforcement and regulatory partners, the FBI 
considers these task forces and working groups to be significant, and 
highly cost effective, force multipliers.
    Question. How does your budget increase coordination between the 
FBI and other agencies involved in the southwest border initiatives?
    Answer. The FBI coordinates with other agencies involved in 
Southwest Border initiatives in numerous ways to ensure that efforts 
are synergistic, leading to better results than any one agency could 
achieve alone. For example, all FBI field offices, including those 
responsible for the States along the Southwest Border, include squads 
specifically responsible for criminal enterprise, violent crime, and 
public corruption investigations. These squads work closely with their 
counterparts in the Bureau of Alcohol, Tobacco, Firearms and Explosives 
(ATF), Drug Enforcement Administration (DEA), U.S. Immigration and 
Customs Enforcement (ICE), and other relevant agencies to coordinate 
the many activities in which they have complementary roles. In 
addition, several task forces and working groups focus on particular 
aspects of the problems arising along our Southwest Border. These 
groups include the following:
  --El Paso Intelligence Center (EPIC).--EPIC, which is led by the DEA 
        and includes the participation of numerous Federal, State, and 
        local agencies including the FBI, ATF, and ICE, was initiated 
        to collect and disseminate information concerning drug, alien, 
        and weapon smuggling. The FBI relies on the capabilities 
        afforded by EPIC's multi-agency environment, coordinating its 
        drug investigations closely with EPIC to ensure de-confliction 
        and the efficient use of Organized Crime Drug Enforcement Task 
        Force (OCDETF) resources.
  --OCDETF.--OCDETF serves an important coordinating role in this 
        region. In addition to the activities discussed above, an 
        OCDETF Strike Force comprised of twelve FBI agents, nine DEA 
        agents, two ICE agents, and one Texas Ranger was created in El 
        Paso, Texas, and works closely with DEA's Resident Office in 
        Cd. Juarez, Mexico, to gather intelligence and, when possible, 
        assist in operations. Among other things, this Strike Force's 
        investigations target Mexican Consolidated Priority 
        Organizational Targets (CPOTs), who are responsible for a large 
        amount of violence around the border. Another OCDETF Strike 
        Force, operating in the FBI's San Diego Division since January 
        2007, has also targeted Mexican CPOTs, identifying a number of 
        Arellano-Felix Mexican Drug Trafficking Organization (MDTO) 
        kidnapping/homicide cells working within southern California. 
        The San Diego Strike Force works closely with that Division's 
        Violent Crime/Major Offender Squad to relay intelligence 
        gleaned during drug enterprise investigations that involve 
        violent crime issues. This Strike Force also regularly reports 
        on corruption within the Mexican government.
  --High Intensity Drug Trafficking Area (HIDTA) Program.--The FBI's El 
        Paso Office participates in the regional HIDTA program, in 
        which executive managers of numerous Federal, State, and local 
        law enforcement agencies participate in monthly meetings to 
        discuss the border violence and to look for trends and possible 
        crossover into the United States.
  --Southwest Intelligence Group (SWIG).--The SWIG serves as the 
        central repository and distribution point for FBI intelligence 
        on both criminal and national security issues for this region. 
        The SWIG is currently moving from FBI Headquarters (FBIHQ) to 
        EPIC, where it will be co-located with ATF, DEA, and ICE 
        personnel.
  --Resolution Six, Mexico (R-6).--The purpose of R-6 is to enhance the 
        inter-agency coordination of drug and gang investigations 
        conducted in Mexico, with R-6 personnel working in coordination 
        with the Mexican military and law enforcement authorities to 
        gather intelligence in pursuit of the MDTOs and individuals 
        responsible for lawlessness along the Southwest Border. R-6 
        priorities include confidential human source development, 
        supporting domestic cases appropriate for U.S. prosecution, 
        cultivating liaison contacts within Mexico, and supporting 
        bilateral criminal enterprise initiatives. The R-6 program is 
        supervised by personnel located in numerous critical cities, 
        including Mexico City, Cd. Juarez, Tijuana, Hermosillo, and 
        Guadalajara.
    --Some R-6 personnel are co-located with the DEA to facilitate the 
            coordination of drug investigations and participation in 
            the R-6/DEA Electronic Intelligence Collection Initiative. 
            The goal of this initiative is to identify and collect 
            intelligence on drug cartel structures in order to disrupt 
            and dismantle these criminal enterprises. This initiative 
            will be worked with Mexico's Secretaria de Seguridad 
            Publica (SSP); once reliable and significant intelligence 
            is obtained, the SSP will present the findings to Mexican 
            federal prosecutors and initiate formal investigations.
    --R-6 personnel also coordinate intelligence sharing and operations 
            with ATF and United States Marshals Service (USMS) 
            personnel stationed in Mexico in support of domestic FBI 
            drug and organized crime investigations. R-6 and the USMS 
            are initiating a Mexican Fugitive Intelligence Vetted Unit 
            to locate fugitives that are members of, or protected by, 
            drug cartels. The Mexican Intelligence Service will attempt 
            to locate the fugitives using cellular tracking and other 
            technologies and, once a fugitive is located, Mexican-
            vetted units will execute operations to apprehend the 
            fugitive.
  --Violent Gang Safe Streets Task Forces (VGSSTFs).--A number of FBI 
        VGSSTFs are working closely with Federal, State, and local law 
        enforcement agencies to address violent street and prison gangs 
        operating along the Southwest Border. Over the past several 
        years, gangs such as the Mexican Mafia, the Almighty Latin 
        Kings, and the Hermanos de Pistoleros Latinos have been linked 
        to the smuggling and distribution of drugs for MDTOs. With 
        their alliances to MDTOs, these gangs have committed murders 
        and other violence in an effort to control territory along the 
        Southwest Border.
  --Border Corruption Task Forces.--The FBI participates in six border 
        corruption task forces along the Southwest Border. Among these 
        is the National Border Corruption Task Force, which is a 
        partnership between the FBI and U.S. Customs and Border 
        Protection-Internal Affairs (CBP-IA) to be based at FBIHQ. The 
        FBI and CBP-IA intend to coordinate their investigative efforts 
        and resources and to conduct joint corruption training for 
        field agents and managers.
    Question. I think coordination of efforts not only at the Federal 
level but also between Federal agencies and State and local agencies is 
critically important in combating drug and gang violence. What funding 
and resources are directly invested in the FBI's 56 field offices? How 
closely do these field offices work with and share information with 
State and local law enforcement officers?
    Answer. The FBI maintains drug, gang, and violent crime squads 
along the Southwest Border that work closely with State and local 
police agencies, as well as with the ATF, DEA, and ICE. For example, in 
calendar year 2008, the FBI's offices in San Diego, Albuquerque, 
Phoenix, El Paso, Houston, Dallas, Los Angeles, and San Antonio 
participated in investigations of approximately 400 OCDETF and Criminal 
Enterprise cases with a nexus to Mexican drug trafficking and 
approximately 300 OCDETF and Criminal Enterprise cases with a nexus to 
violent gangs. These investigations resulted in approximately 2,621 
arrests, 1,036 indictments, and 620 convictions in fiscal year 2008.
    The FBI currently funds and manages approximately 150 VGSSTFs to 
address violent street and prison gangs operating along the border, 
with funding comprised primarily of asset forfeiture funds and OCDETF 
funds, along with some direct FBI funding. The VGSSTFs are staffed by 
over 650 FBI agents and over 1,000 task force officers, which include 
both State and local police officers.
    Question. What metrics are you using to ensure that funding spent 
on counter-drug and counter-gang activities successful?
    Answer. The FBI measures the success of its counter-drug and 
counter-gang activities by tracking the statistics representing the 
following activities, all of which are tracked by FBI division, region, 
and nationally.
  --Pending criminal enterprise and drug-related money laundering 
        cases.
  --Drug trafficking operations, violent street gangs, outlaw 
        motorcycle gangs, and prison gangs disrupted or dismantled as a 
        result of the FBI's investigative efforts.
  --Seizures of illicit drugs and illicit drug funds.
  --Arrests, indictments, convictions, and sentences.
  --Asset forfeitures.
    As described in the fiscal year 2010 Congressional Justification, 
during fiscal year 2010, the FBI anticipates disrupting 30 drug-
trafficking organizations with links to Consolidated Priority 
Organization Targets (CPOT) and dismantling 15 drug trafficking 
organizations with links to CPOTs. In addition, the FBI anticipates 
dismantling 99 gangs and other criminal enterprises.
    Question. Are there any specific initiatives focused on the issue 
of U.S. gang members participating in illicit activities coordinated by 
Mexican drug cartels?
    Answer. Yes. The SWIG has dedicated 11 Intelligence Analysts to 
conduct strategic analysis of the Southwest Border. Among other 
missions, these analysts are reviewing the connections between the 
Mexican drug cartels and their use of United States gang members for 
narcotics distribution and enforcement within the United States. In 
addition, there are 24 VGSSTFs in the eight FBI Divisions on the 
Southwest Border (Albuquerque, Dallas, El Paso, Houston, Los Angeles, 
Phoenix, San Antonio, and San Diego). These task forces target the 
``worst of the worst,'' regardless of their status astrans-national, 
national, regional or local/neighborhood-based gangs.
    Question. Does this proposed budget have all the resources you need 
to carry out your cyber security duties?
    Answer. The FBI will continue to work with the Congress, the Office 
of Management and Budget, and others in the Department of Justice to 
identify the funding needed to address the administration's priorities.
    Question. What measurable goals do you plan to achieve with the 
funding provided under this budget?
    Answer. The funds referenced in the question relate to the 
Comprehensive National Cybersecurity Initiative (CNCI), supporting the 
investigative, intelligence, and technological requirements to combat 
cyber attacks. These resources will increase the FBI's ability to 
respond to counterterrorism, counterintelligence, and criminal computer 
intrusions, with particular emphasis on intrusions with a 
counterintelligence nexus. These resources will ensure that the FBI has 
the technological infrastructure to conduct these investigations and to 
turn seized network information into actionable intelligence products 
that can be used across the United States Intelligence Community to 
allow the government to move from a reactive to a proactive posture 
with respect to cyber attacks.
    The cyber threat to the Unites States and its allies is 
increasingly sophisticated, effective, dangerous, and broad in scope. 
Cyber-based attacks and intrusions directed at networks and networked 
systems continue to increase, resulting in substantial economic losses. 
The United States has suffered substantial loss of critical 
intelligence as a result of cyber exploitation, much of which may be by 
State sponsors. This is demonstrated concretely by foreign intrusions 
spanning U.S. government, academia, military, industrial, financial, 
and other domains, causing incalculable damage. Information related to 
U.S. government sensitive research, including military contractor 
research, has been compromised. Simply put, the Internet has provided 
foreign intelligence services with routine and immediate access inside 
otherwise well-guarded facilities and the ability to quickly exfiltrate 
massive quantities of data that otherwise (if in paper format) would 
require a well-coordinated fleet of tractor trailers and tankers to 
remove from our country.
    To meet the demands posed by cyber threats, the FBI must develop 
significant new assets and capabilities and transition its efforts from 
reactive investigations to the proactive mitigation of threats before 
they cause harm. To accomplish these objectives, the FBI must expand in 
the following areas: investigatory capabilities, cyber intelligence 
collection, science and technology tools to enhance investigatory and 
intelligence collection capabilities, and FBI information technology 
information assurance. In order for the FBI to expand its investigatory 
and intelligence gathering capabilities, the FBI's ability to intercept 
data, develop technical tools, and conduct data analysis of networks 
and seized hardware must expand as well.
    The National Cyber Investigative Joint Task Force (NCIJTF), which 
serves as a multi-agency national focal point for coordinating, 
integrating, and sharing pertinent information related to cyber threat 
investigations, forecasts a 50 percent increase in the number of cyber-
related electronic surveillance operations, a 30 percent increase in 
cyber-related undercover operations, and a 10 percent increase in the 
number of confidential human source operations, all of which will 
increase the burden on existing resources.
    Question. How does the Cyber Program coordinate and work with other 
cyber security initiatives such as the National Cyber Investigative 
Joint Task Force in which the FBI participates?
    Answer. The NCIJTF is an alliance of peers that includes 
representation from across the U.S. Government intelligence and law 
enforcement communities. The NCIJTF's member agencies have 
complementary missions to protect national cyber interests, operating 
through the NCIJTF in a collaborative environment that assists, but 
does not direct, the operational and investigative activities of 
participating agencies. The FBI participates in the NCIJTF, which 
seeks, through the joint investigative and operational efforts of its 
members, to proactively develop predictive intelligence and mitigate 
the cyber threat through the active use of that intelligence. As the 
NCIJTF's executive agent, the FBI has aligned critical investigative 
efforts to avoid and prevent duplications of effort, redundant legal 
process, and operational confusion. The FBI has also placed experienced 
personnel in liaison positions working on the cyber security 
initiatives sponsored by other agencies to facilitate the growth and 
efficacy of the NCIJTF. For example, the FBI's Cyber Division has 
assigned an experienced Senior Executive Service official as a detailee 
to the National Counterintelligence Executive, supporting the 
development of the National Cyber Counterintelligence Plan called for 
under the CNCI.
                                 ______
                                 

              Question Submitted by Senator Sam Brownback

    Question. I understand the demand on FBI aviation has increased 
substantially in recent years. I also understand the FBI may be forced 
to rely on older or substandard equipment to fulfill these missions and 
meet the increased demand for surveillance capabilities. Can you 
describe the demands being made of FBI aviation, especially for aerial 
surveillance missions? Do you have enough aircraft to meet the 
increased demands?
    Answer. The FBI's aviation program provides safe and effective 
support for all facets of FBI investigative activities and law 
enforcement operations. Aircraft surveillance has become an 
indispensable intelligence collection and investigative technique, and 
serves as a force multiplier to the ground surveillance teams. Aircraft 
surveillance allows ground personnel to remain further away from the 
surveillance target, ensuring greater personnel safety and reducing or 
eliminating the risk of compromise.
    On average, the FBI fulfills between 10,000 and 15,000 requests for 
surveillance each year. However, lower priority aviation surveillance 
requests go unaddressed because of the lack of aircraft, excessive 
aircraft down-time due to required maintenance or mechanical problems, 
lack of crew, or weather challenges. The growth in the number of 
surveillance requests for Foreign Intelligence Surveillance Act (FISA), 
Physical Surveillance (FISUR), and other national security priorities 
has not only increased the number of requests that cannot be filled, 
but has also reduced the availability of hours for criminal matters. 
Prior to September 11, 2001, criminal matters accounted for 
approximately 79 percent of total aviation surveillance hours; criminal 
matters now account for only 30 percent of the total aviation hours 
flown.
    In 2005, the aviation program consisted of 104 surveillance 
aircraft regularly conducting surveillance missions--90 single engine 
and 14 twin/multi-engine aircraft. An audit of these aircraft found 
that the average age for both single and twin/multi-engine aircraft 
exceeded 25 years. Frequent inspections, overhauls, and parts 
replacement dramatically increase the maintenance costs and down-time 
of older aircraft. Eventually, it is more expensive to maintain the 
aircraft than to purchase a new one, particularly if it is necessary to 
update an old airframe with the avionics required to communicate with 
FAA towers, other aircraft, and ground surveillance teams. The FBI has 
been able to replace 23 of the single engine aircraft (with an 
additional 47 on order). The new aircraft are equipped with technology 
that allows the FBI to conduct surveillance at night, which is when 
most targets operate, as well as during reduced visibility conditions.
    In contrast, the FBI has been forced to remove without replacement 
seven multi-engine aircraft from its inventory because of maintenance 
costs and overall age. The last two remaining ``King Air'' aircraft in 
inventory are multi-engine planes that are capable of imaging and 
identifying a moving target from above 10,000 feet, which is imperative 
for reducing the risk of exposure, and can fly for over five 
consecutive hours. Unfortunately, the FBI will have to remove these two 
airframes from operation beginning September 30, 2009 because of their 
age.

                          SUBCOMMITTEE RECESS

    Senator Mikulski. The subcommittee will temporarily recess 
and reconvene in the Capitol Visitor Center Room 217 to take 
classified testimony from the FBI Director. We are going to 
reconvene at 10:50 a.m., and we'll see you there.
    The subcommittee stands in recess.
    [Whereupon, at 10:30 a.m., Thursday, June 4, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
